No.

IN THE
SUPREME COURT OF THE UNITED
STATES

MATTHEW J. FRAWLEY— PETITIONER
VS.
VICTORIA L. FRAWLEY— RESPONDENT

\

PROOF OF SERVICE

tv-

.4

I, MATTHEW J. FRAWLEY, do swear or declare
that on this date, the 4th day of July, 2020, as
required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PA UPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other
person required to be served, by depositing an
envelope containing the above documents in the
United States mail properly addressed to each of

RECEIVED
JUL - 9 2020
OFFICE OF THE CLERK
SUPREME COURT i iq

them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as
follows^
Stephanie Schutt, attorney for Respondent, 12B
WESTWOODS DRIVE, Liberty, MO 64068.
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on 4th of July 2020
/s/Ma
J. Jrawlev
Matthew IL^Frawlesy MBE 69551

<1

